Report No. D-2008-116        August 12, 2008




       DoD Section 801 On-Base Housing
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB                           Air Force Base
EIS                           Environmental Impact Statement
IG                            Inspector General
NBVC                          Naval Base Ventura County
NEPA                          National Environmental Policy Act
NFESC                         Naval Facilities Engineering Service Center
NWS                           Naval Weapons Station
RAVA                          Risk Analysis Vulnerability Assessment
U.S.C.                        United States Code
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704
                                                                                     August 12,2008

MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE (INSTALLAnONS
                  AND ENVIRONMENT)
              ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                  MANAGEMENT AND COMPTROLLER)
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: DoD Section 801 On-Base Housing (RepOlt No. D-2008-116)

We are providing tllis report for your infOll1lation and use. We perfOll1led the audit in response to
a congressional request. We considered comments from the Deputy Under Secretary of Defense
(Installations and Environment) and the Department of the Navy when preparing the final repOlt.

ConU11ents on the draft of this repOlt conformed to the requirements of DoD Directive 7650.3 and
left no umesolved issues. Therefore, we do not require any additional COl11l11ents.

We appreciate the cOUltesies extended to the staff. Please direct questions to Ms. Deborah L. Culp
at (703) 604-9335 (DSN 664-9335) or Ms. Gwynne M. Roberts at (703) 604-9308 (DSN
664-9308). If you desire, we will provide a formal briefmg on the results.




                                              Richard B. Jolliffe
                                              Assistant Inspector General
                                              Acquisition and Contract Management
                   Report No. D-2008-116 (Project No. D2007-D000CG-0220.000)
                                         August 12, 2008

              Results in Brief: DoD Section 801
              On-Base Housing
                                                       Impact Statement. Six other DoD installations
What We Did                                            have Section 801 on-base housing units. The
This report is in response to Congressman              Navy Section 801 on-base housing units are less
Christopher H. Smith’s request for the DoD             than 40 percent occupied. Naval Base Ventura
Inspector General to review the Section 801            County Port Hueneme officials explored the
housing contract between the Navy and                  possibility of placing unaccompanied military
Laurelwood, Inc., for 300 housing units on base        members in the Section 801 housing units. The
at Naval Weapons Station Earle, New Jersey. In         Section 801 contracts do not include early
September 2010, Laurelwood, Inc., may lease            termination provisions without severe monetary
the on-base housing units to the general public.       penalties.

We reviewed the terms and conditions of Naval          What We Recommend
Weapons Station Earle Section 801 on-base              DoD should consider an exit strategy and
housing contract and Section 801 on-base               location of housing units in future build-to-
housing contracts at other DoD installations to        lease housing contracts. The Navy should
determine additional security measures they            continue to pursue FY 2009 amendments to
implemented or plan to implement for the               section 2835, title 10, US Code and if enacted,
general public to live on base. We also                apply for a waiver to permit unaccompanied
determined whether the Navy had issued a               military members to occupy vacant Section 801
contract to conduct an environmental analysis to       housing units for the remainder of the contract.
comply with the National Environmental Policy
Act for Naval Weapons Station Earle and                Client Comments and Our
whether the Environmental Impact Statement
will cover security.
                                                       Responses
                                                       The Deputy Under Secretary of Defense
What We Found                                          (Installations and Environment) partially
                                                       concurred with Recommendation B.1., stating
Naval Weapons Station Earle officials are              that the Section 801 authority is no longer used
appropriately acting within the terms and              and current housing privatization initiatives do
conditions of the 1988 Section 801 housing             not contain the same provisions. DoD will
agreement contract with Laurelwood, Inc.               convey the lessons learned at the next meeting
However, they must make a difficult decision on        of the DoD Housing Policy Panel. The Navy
whether to allow the general public to live on         concurred with all three recommendations,
base or terminate the contract. Either decision        stating that there are no future plans to award
will be costly for the Navy. The Navy is in a          build-to-lease housing projects and a legislative
difficult situation but is addressing the issues       proposal has been submitted to Congress for
through the Environmental Impact Statement             approval. If approved, the Navy plans to
and increased security measures for the general        implement the proposal wherever feasible. We
public to live on base. The Navy issued a              consider these comments to be responsive and
contract to conduct an environmental analysis to       no additional comments are required. Please see
comply with the National Environmental Policy          the recommendations table on the back of this
Act, and the Navy will review security                 page.
considerations to include in the Environmental

                                                   i
              Report No. D-2008-116 (Project No. D2007-D000CG-0220.000)
                                    August 12, 2008

Recommendations Table
 Client                      Recommendations         No Additional Comments
                             Requiring Comment       Required
 Deputy Under Secretary                              B.1.
 of Defense (Installations
 and Environment)
 Assistant Secretary of                              B.2.
 the Navy (Installations
 and Environment)
 Commanding Officer,                                 B.3.
 Naval Base Ventura
 County Port Hueneme




                                          ii
Table of Contents

Results in Brief                                                            i

Introduction                                                                1

       Objectives                                                          1
       Background                                                          1

Finding A. Congressional Questions About Section 801 On-Base
Housing Contracts                                                           3

Finding B. Improved Planning Needed for On-Base Housing Contracts          25

       Recommendations                                                     34

Appendices

       A. Scope and Methodology                                            37
             Review of Internal Controls                                   40
             Prior Coverage                                                40
       B. Congressman Christopher H. Smith Request                         41
       C. Community Concerns                                               43

Client Comments

       Deputy Under Secretary of Defense (Installations and Environment)   45
       Department of the Navy                                              46
       Navy Region Southwest                                               48
Introduction
Objectives
The overall objective of this audit was to review the terms and conditions of the contract
between the Navy and Laurelwood, Inc., for the Section 801 on-base housing at Naval
Weapons Station (NWS) Earle, New Jersey. Specifically, we reviewed the security
measures the Navy will implement for the general public to live on base. However, we
did not review the sufficiency of the security measures the Navy plans to implement nor
did we perform a comprehensive security threat assessment. We also determined
whether the Navy had issued a contract to conduct an environmental analysis to comply
with the National Environmental Policy Act (NEPA) for NWS Earle and whether the
Environmental Impact Statement (EIS) will cover security. In addition, we determined
whether DoD has rented on-base housing to the general public at other DoD installations
and whether additional security measures are in place at those locations. See Appendix A
for a discussion of the scope and methodology and prior audit coverage.

Background
This report is in response to Congressman Christopher H. Smith’s request for the DoD
Inspector General (IG) to review the contract between the Navy and Laurelwood, Inc.
and security concerns, for 300 Section 801 on-base housing units at NWS Earle (see
Appendix B).

In addition, Congressman Smith requested that the DoD IG review the security guard
services contract at NWS Earle. “Security Guard Services Contract at Naval Weapons
Station Earle,” Project No. D2008-D000CG-0116.000, was announced on January 24,
2008, in response to Congressman Smith’s request. The objective of the audit is to
determine whether the Navy properly administered the contract and whether the
contractor performed according to contract requirements. A separate report will be
issued to address the security guard services contract.

NWS Earle
NWS Earle is located in Colts Neck, New Jersey, and is one of three Naval weapons
stations on the East Coast. The station totals 11,851 acres and comprises two separate
land holdings connected by a 14-mile-long highway and rail line. NWS Earle’s mission
includes:

   •   receiving, renovating, maintaining, storing, and issuing ammunition, explosives,
       expendable ordnance items, and weapons and technical ordnance material;

   •   providing logistics and administrative support to homeported ships; and




                                            1
   •   additional tasks as directed by the Commander-in-Chief, U.S. Atlantic Fleet or
       similar authority.

Section 801 Housing
Congress enacted and President Reagan signed the Military Construction Authorization
Act of FY 1984 on October 11, 1983, authorizing Section 801 housing. The act
established the Military Family Housing Leasing Program as a pilot program for 2 years;
however, the provisions were renewed regularly until the program became permanent in
1991. DoD attempted to tap into the resources of the private sector using Section 801
housing to improve military family housing and in turn increase morale to encourage
reenlistment. Section 801 also alleviated the need for major new housing construction
with appropriated funds. The Section 801 housing program provided an incentive for
private developers to build new rental housing on or near military installations. The
private developer or DoD operates and maintains the housing depending on the terms of
the contract. Section 801 on-base housing contracts consist of two phases, an inlease and
an outlease, each with different conditions for payment and occupancy. DoD leases the
units exclusively from the developer during the inlease phase of the contract at a fixed
rental rate regardless of occupancy level. The rental rate is either a fixed rate over the life
of the inlease or an adjustable rate based on the Consumer Price Index.

Once the inlease expires and transitions into the outlease phase, the rental burden shifts
from DoD to the developer. The developer has the option of renting the units to the
general public during the outlease. The developer pays DoD rent for the use of the land
during the outlease phase of the contract. DoD may continue to provide fire and
emergency services to the units during the outlease. At the end of the outlease, the
developer must return the land to its original condition.

The Deputy Assistant Secretary of Defense (Installations) testified to Congress in
1987 that in the future, DoD would not build Section 801 housing projects on
Government-owned land. Congress mandated, in the Defense Authorization Act passed
in 1991, that Section 801 projects be built off post. DoD announced that it would no
longer request new authorizations for Section 801 housing projects starting in FY 1992.
Instead of using the Section 801 housing program, DoD primarily uses military housing
privatization authorities contained in section 2835, title 10, United States Code
(10 U.S.C. 2835) to provide military family housing.

NEPA
Federal agencies are required under NEPA to integrate environmental values into their
decision making by considering the environmental effects of their proposed actions and
reasonable alternatives to those actions. Federal agencies prepare a detailed statement
known as an EIS. The Environmental Protection Agency reviews and comments on EISs
that Federal agencies prepare.




                                              2
Finding A. Congressional Questions About
Section 801 On-Base Housing Contracts
Naval Weapons Station Earle officials are appropriately acting within the terms and
conditions of the 1988 Section 801 on-base housing agreement contract with Laurelwood,
Inc. The terms of the contract state that Laurelwood, Inc., may rent the on-base housing
units to the general public following the expiration of the inlease phase of the agreement
in August 2010.

   •   Naval Weapons Station Earle will implement additional security measures for the
       general public to live on base, including a dedicated access road and a perimeter
       fence around the Section 801 on-base housing units.

   •   The Navy issued task order 21 from contract N62472-01-D-1390 in the amount of
       $399,903.00 and task order 27 from contract N62470-06-D-7106 in the amount of
       $599,592.00 to The Environmental Company for assistance in the preparation of
       the Environmental Impact Statement. The Navy will complete its own study on
       security to include in the Environmental Impact Statement.

   •   In addition, six other DoD installations have Section 801 housing units located on
       base. Currently, Fort Wainwright, Alaska, is the only DoD installation with the
       general public living on base in the Section 801 housing units. Fort Wainwright
       officials implemented additional security measures, similar to those planned for
       Naval Weapons Station Earle, for the general public to live on base.

Naval Weapons Station Earle officials, in accordance with the terms and conditions of the
contract, continue to adequately plan for all the steps necessary for the general public to
live on base. However, Naval Weapons Station Earle officials face an increased security
monitoring burden by allowing the general public to reside in Section 801 on-base
housing units or the Navy will face costly penalties to negotiate termination of the
contract and compensate the contractor for lost revenue during the remainder of the
contract period.

Section 801 On-Base Housing Contract Between
Laurelwood, Inc., and NWS Earle
NWS Earle officials are acting within the terms and conditions of the Section 801
housing contract with Laurelwood, Inc., by allowing the general public to live in
Section 801 on-base housing units during the outlease. The Navy and Laurelwood, Inc.,
entered into 52-year contract N62472-86-RP-00209, on October 24, 1988, to build 300
Section 801 housing units on base at NWS Earle. The 300 units consist of 36 four-
bedroom units, 60 three-bedroom units, and 204 two-bedroom units. The Navy has paid
about $59.8 million in rental payments on the contract as of April 2008. During the


                                            3
52-year term of the contract, the developer is unable to transfer the lease to a third party
without the prior written consent of the Navy. The developer must demolish the units
and restore the land to its original condition at the conclusion of the 52-year contract.
The contract has two phases: the inlease and the outlease. Figure 1 shows Section 801
on-base housing units at NWS Earle.




                    Figure 1. NWS Earle Section 801 Housing Units

NWS Earle Inlease
During the inlease phase, the Navy leases all 300 units at NWS Earle from the developer
and the units are used exclusively for military family housing. The 22-year inlease runs
from September 1, 1988, through August 31, 2010. The Navy pays the developer a fixed
rental rate regardless of the unit occupancy rate. The developer is responsible for all
maintenance, repairs, replacements, rehabilitation, and redecoration of the units.

NWS Earle Outlease
During the outlease phase, the developer pays the Navy a rental equal to the appraised
fair market rental value of the leased property for the use of the land at NWS Earle. The
Navy will determine the fair market rental value of the leased property closer to the end
of the inlease period. The 30-year outlease runs from September 1, 2010, through
August 31, 2040. During the outlease, the developer may lease the housing units on base
to members of the general public of the developer’s own choosing, as well as set rental
rates and other terms of occupancy. The Navy is responsible for providing fire, police,
snow removal, and utilities services during the outlease.

The Navy must grant reasonable access to the housing units and obtain any permits
associated with granting unimpeded access to the property from a state, primary, or
secondary highway. The developer is responsible for the construction of a dedicated
access road to the housing units. If the Navy does not provide unimpeded access to the
housing units by September 1, 2010, the contract is terminated and the Navy pays the
developer an amount equal to the developer’s right to use or occupy the units for the




                                              4
outlease. The Navy would pay a substantial amount if the contact is terminated, in
addition to the rental amount of about $59.8 million (as of April 2008) the Navy already
paid for the Section 801 on-base housing units.

NWS Earle Mission Changes Causing Low Occupancy of Units
The NWS Earle mission changed in the early 2000s, decreasing the need for all
300 housing units. The Section 801 housing unit occupancy rate fell significantly over
the past 8 years. The Navy paid the developer an annual rental rate of $3,554,424 from
May 2007 through April 2008 for all 300 units regardless of occupancy rates. In 2007,
the Navy paid about $444,303 per unit for eight occupied units. See Table 1 for NWS
Earle Section 801 on-base housing unit occupancy rates from 2000 to 2007.

      Table 1. NWS Earle Section 801 On-Base Housing Unit Occupancy Rates

                          Year                     Percentage of Occupied Units

                          2000                                    95
                          2001                                    78
                          2002                                    43
                          2003                                    25
                          2004                                    22
                          2005                                    14
                          2006                                     7
                          2007                                     3

The Navy and the developer modified the contract with supplemental lease
agreement 43 in August 2002, to permit refinancing by the developer and accelerate the
transition to the outlease phase. The developer agreed to transfer 50 units per year from
the Navy contract, reducing the Navy annual rental payment by $567,000. The developer
would begin accepting the units 18 months after the Navy provided unimpeded access to
the housing units. As of February 2008, the Navy has not provided unimpeded access to
the housing units. It is unlikely that the Navy will meet the conditions to accelerate the
transition to the outlease phase to decrease the rental payments before the inlease expires
in 2010.

Congressional Questions and DoD IG Responses
DoD IG received a congressional request from Congressman Christopher H. Smith to
review the Section 801 housing contract between the Navy and Laurelwood, Inc., for
300 units of Section 801 housing located on base at NWS Earle. The congressional




                                             5
request refers to the outlease phase of the contract that allows Laurelwood, Inc., to rent
the units to the general public. Specifically we reviewed:

   •   the security measures the Navy will implement for the general public to live on
       base;

   •   whether the Navy had issued a contract to comply with NEPA for NWS Earle and
       whether security will be covered in the EIS; and

   •   whether DoD rented on-base housing to the general public at other DoD
       installations and whether additional security measures are in place at those
       locations renting to the general public.

Congressman Smith is concerned with the increased security threats to the base and the
surrounding communities when the Section 801 housing units are open to the general
public. We discuss the issues identified by Congressman Smith in the sections that
follow. Furthermore, we visited and reviewed six other installations with Section 801 on-
base housing.

In addition to the concerns raised by Congressman Smith, state and local officials, and
citizens from communities surrounding NWS Earle brought other concerns to the
attention of DoD IG. See Appendix C for a list of several of the primary community
concerns regarding allowing the general public to reside on base at NWS Earle during the
outlease.

Question 1
What security measures will the Navy implement for the general public to live on base?

DoD IG Response
According to NWS Earle Security Officials, extra security measures that will be
implemented for the general public to live on base include but are not limited to:

   •   building a standard Navy 7-foot-high fence around the units,

   •   granting an easement for the developer to construct a dedicated access road to the
       units,

   •   vetting renters, and

   •   increasing law enforcement patrols to the housing units.

Building a Fence
Prior to the start of the outlease, the Navy plans to build a standard 7-foot-high fence
around the Section 801 housing units, cordoning off the units from NWS Earle’s main
post. Currently a standard 7-foot-high fence surrounds the entire perimeter of NWS Earle



                                             6
and runs along each side of Route 34 as it intersects the installation. Figure 2 shows the
standard 7-foot-high fence that surrounds NWS Earle.




                   Figure 2. Navy Standard 7-Foot-High Fence
                              Surrounding NWS Earle

Access Road Alignments and Easements
The Navy must select an easement and road alignments for the developer to build an
access road and allow unimpeded access to the units by September 1, 2010, to avoid
breaching the terms of the contract. Originally, the Navy considered 34 road alignments
to provide unimpeded access to the Section 801 housing units. Navy officials revised and
eliminated alignments and currently are considering four road and fence alignments for
the dedicated access road to the Section 801 on-base housing units. The Navy included
three of NWS Earle four housing areas in the alignments: Green Drive, Stark Road, and
Laurelwood. The Laurelwood housing area includes the Section 801 units. The NWS
Earle main gate is not used as an access point in any of the four proposed alignments.
The Navy will consider all four alignments in the EIS. As of March 2008, the Navy has
not decided which road alignment to use. Also, the Navy may use a different alignment
than the four discussed in this report.




                                             7
Alignment 1
For Alignment 1, the Navy proposes cordoning off the Stark Road and the Laurelwood
housing areas from the NWS Earle main post. The Navy would allow the use of existing
roads as much as possible and add security gates where needed. Figure 3 shows proposed
Alignment 1.




Figure 3. Proposed Alignment 1




                                          8
Alignment 2
For Alignment 2, the Navy proposes cordoning off the Stark Road, Green Drive, and the
Laurelwood housing areas from the NWS Earle main post. The Navy would allow the
use of existing roads as much as possible and add security gates where needed. Figure 4
shows proposed Alignment 2.




Figure 4. Proposed Alignment 2




                                           9
Alignment 3
For Alignment 3, the Navy proposes cordoning off the Stark Road, Green Drive, and the
Laurelwood housing areas from the NWS Earle main post. The Navy would allow the
use of existing roads as much as possible and add security gates where needed. The
Navy includes more structures outside the fence in Alignment 3 than in Alignment 2.
Figure 5 shows proposed Alignment 3.




Figure 5. Proposed Alignment 3




                                          10
Alignment 4
For Alignment 4, the Navy proposes cordoning off only the Laurelwood housing areas
from the NWS Earle main post. The Navy would grant an easement for the access road
to be built through the base. The Navy would build a fence on each side of the road
similar to the fence that runs on each side of Route 34 as it intersects NWS Earle. The
developer would build a bridge or underpass for Alignment 4. Figure 6 shows proposed
Alignment 4.




Figure 6. Proposed Alignment 4

Vetting Renters
NWS Earle security officials could conduct background checks on members of the
general public renting the Section 801 on-base housing units. The NWS Earle
Investigations Division would perform the background checks. The Navy could perform
a wants and warrants background check on potential renters and would not be in violation
of the Privacy Act of 1974 or The Fair Housing Act.

The Navy needs to collect and handle any personally identifiable information in
accordance with the Privacy Act. The Navy would not violate the Privacy Act by
collecting personally identifiable information. Section 552a(e), title 5, United States
Code (5 U.S.C. 552a[e]) requires
       administrative, technical, and physical safeguards to insure the security and
       confidentiality of records and to protect against any anticipated threats or




                                                11
       hazards to their security or integrity which could result in substantial harm,
       embarrassment, inconvenience, or unfairness to any individual on whom
       information is maintained.

The Navy would not violate the Fair Housing Act by conducting background checks.
The Fair Housing Act (42 U.S.C. 3604[a]), prohibits refusing to rent to a potential tenant
“because of race, color, religion, sex, familial status, or national origin.” Therefore, the
Navy may conduct background checks, but it would have to completely document the
security justification for any refusals based on those checks to demonstrate that the
refusal was not based on “race, color, religion, sex, familial status, or national origin.”

Additional Security
The Navy retains Exclusive Federal Jurisdiction over the Section 801 housing units
during the outlease phase because the housing units are located on Federal land;
therefore, the Navy is obligated to provide law enforcement to the units. According to
NWS Earle Security officials, they will provide extra law enforcement patrols of the
Section 801 housing area, if needed, once the general public lives on base. The
Government must use Federal attorneys, brigs, Federal magistrates, and Federal courts
for criminal prosecutions of tenants.

Question 2
Has the Navy issued a contract to conduct an environmental analysis to comply with
NEPA for NWS Earle and will security be covered in the EIS?

DoD IG Response
The Navy issued a contract to comply with NEPA for NWS Earle and the EIS will cover
security, environmental, traffic, and education concerns. The Navy issued task order 21
from contract N62472-01-D-1390 on September 29, 2004, in the amount of $399,903.00,
and task order 27 from contract N62470-06-D-7106 on August 9, 2007, in the amount of
$599,592.00, to The Environmental Company for assistance to the Navy in the
preparation of the EIS. The Navy anticipates the draft EIS will be issued in November
2008.

The Navy will complete its own study on security to be included in the EIS. In the EIS,
the Navy will ensure it:

   •   meets the contractual obligations of the contract between the Navy and
       Laurelwood, Inc.;

   •   provides reasonable and safe access to adjacent public roads;

   •   does not compromise NWS Earle security; and

   •   does not affect the ability of NWS Earle to maintain acceptable operational and
       mission capability.



                                                12
DoD Directives and Instructions establish the minimum requirements and standards for
physical security, antiterrorism, and force protection at military installations. According
to Navy Legal Counsel, the Navy is under a legal obligation to meet these minimum
security requirements for NWS Earle. The Section 801 housing at NWS Earle will be
affected by DoD Directives and Instructions because it is located on the base.

Risk Analysis Vulnerability Assessment
The Chief of Naval Operations tasked Naval Facilities Engineering Service Center
(NFESC) Security Engineering Division, Antiterrorism Program personnel from Port
Hueneme, California, to perform a security impact study using the Risk Analysis
Vulnerability Assessment (RAVA) to determine the impact of four alignments on
10 critical assets on NWS Earle. NFESC performed the RAVA at NWS Earle in
November 2003 to determine the impact of converting the Section 801 on-base housing
into an unrestricted housing area where the developer may rent to the general public.
NFESC did not include ammunition and explosives storage areas of NWS Earle in the
RAVA because the four alignments do not affect the boundaries of the areas. The Navy
is currently considering only one alignment that was considered in the RAVA (Figure 6,
Alignment 4).

According to NFESC, RAVA “identifies current levels of vulnerability and risk and then
identifies optimized levels with the implementation of specified countermeasures and
improvements.” NFESC found that attempting to track specific movement of vehicles
transporting explosives would be fairly difficult for people located outside of NWS Earle.
NWS Earle sends multiple shipments to random and unknown destinations. The same
general data could be compiled from locations either within or outside of NWS Earle.

In its conclusions, NFESC found that increased risk for that alignment (Figure 6,
Alignment 4) will be minimal to the 10 critical assets the RAVA focuses on. However,
NFESC noted that “additional security personnel will likely be required to patrol the
additional 3.7 miles of perimeter fencing.”

Recurring Security Assessments
In addition to the EIS and RAVA, the Navy assesses installation security continuously
through numerous security assessments.

The Installation Antiterrorism Officer completes a Risk Assessment annually at the
beginning of each calendar year. The assessment includes:

   •   a criminal and terrorist threat assessment that identifies the local and global
       threats to the installation,

   •   a vulnerability assessment that identifies installation-specific vulnerabilities that
       could be exploited by criminals or terrorists, and




                                             13
   •   a criticality assessment that identifies which installation assets are critical to
       mission accomplishment and could be considered vulnerable to a terrorist or
       criminal threat.

Following the conclusion of the assessment by the Installation Antiterrorism Officer, a
risk assessment is completed that identifies all critical assets that are vulnerable to
criminal and terrorist threats.

Every 3 years a comprehensive external, antiterrorism, integrated, vulnerability
assessment must be conducted. The external assessment is to identify antiterrorism
program deficiencies and vulnerabilities that could be exploited and provide realistic
solutions aimed at improving antiterrorism program implementation and risk mitigation
strategies. The assessment may be conducted by a Chief of Naval Operations Integrated
Vulnerability Assessment Team or the Joint Service Integrated Vulnerability Assessment
Team utilizing Defense Threat Reduction Agency benchmarks. A local assessment is
required annually when there is no higher headquarters assessment.

The cycle of these assessments is generally every 3 years. In the continental United
States, the rotation for the Joint Service Integrated Vulnerability Assessment review is
every ninth year. These assessments ensure that tenant commands and units are included
in all comprehensive antiterrorism program reviews. Housing areas are included in these
assessments.

The Antiterrorism Program Review is required annually for all commands that includes a
tri-annual requirement that must be conducted by a higher headquarters in the
Commander’s chain of command.

The last Joint Service Integrated Vulnerability Assessment on NWS Earle was conducted
in July 2004 and the last Chief of Naval Operation Integrated Vulnerability Assessment
was conducted in August 2007. A higher headquarters review is scheduled to be
conducted in 2010.

Question 3
Has DoD rented Section 801 on-base housing to the general public at other DoD
installations and what additional security measures are in place at those locations?

DoD IG Response
DoD officials rent Section 801 on-base housing units to the general public at one other
DoD installation. Fort Wainwright, Alaska, is the only DoD installation with the general
public living in Section 801 on-base housing units.

The Army entered into Section 801 housing contracts DACA85-1-86-71, DACA85-5-87-
74, and DACA85-5-88-17 with North Star Alaska Housing Corporation to construct
400 housing units on Fort Wainwright. The 400 units consist of 28 five-bedroom units,
68 four-bedroom units, and 304 three-bedroom units. The inlease between the Army and
the developer was in effect from November 1987 until May 5, 2007. During the inlease,


                                             14
the developer was responsible for the maintenance of the units and only military
personnel and their families lived in the units. Figure 7 shows a Section 801 housing unit
on Fort Wainwright.




                      Figure 7. Fort Wainwright Section 801
                                 Housing Unit

The Army turned the units over to North Star Alaska Housing Corporation upon the
expiration of the inlease in May 2007. As of November 2007, the general public and
military families reside in the Section 801 on-base housing units.

The Army implemented the following security measures to allow the general public to
live on base. The measures include:

   •   erecting a security fence around the units,

   •   moving a security gate for accessing the main post, and

   •   constructing an access road to the units.

The Army erected a security fence around the Section 801 housing units, cordoning them
off from the Fort Wainwright main post. The Section 801 housing units are located on
the perimeter of Fort Wainwright, making it easier for the Army to isolate the housing
units from the Fort Wainwright main post. Figure 8 shows the security fence around Fort
Wainwright Section 801 housing units.




                                            15
                      Figure 8. Fence Surrounding Fort Wainwright
                                 Section 801 On-Base Housing Units

The new security gate and access road allow the general public to access the Section 801
housing units without passing through a Fort Wainwright security gate. The Army
moved a security gate back 808 feet, allowing unimpeded access to the Section 801 on-
base housing area. In addition, the Army built a 98-foot-long access road to the
Section 801 on-base housing area.

Generally, the Fort Wainwright security officials said the transition to allow the general
public to live on base is going smoothly, and the units do not appear to have many
problems. As of October 2007, Army security officials did not patrol the Section 801 on-
base housing units. According to Fort Wainwright security officials, crime decreased on
the base after the security fence was placed around the units. Fort Wainwright fire and
emergency services continue to respond to the units if a fire or other emergency situation
occurs in the units. However, the Fort Wainwright security officials do not aid the
developer in vetting or performing background checks on potential renters.

Section 801 Housing Developments Located on Military
Installations
Five other DoD installations, in addition to NWS Earle and Fort Wainwright, have six
Section 801 on-base housing developments. The Army and Navy each have one
additional development and the Air Force has four developments. The overall length of
the lease agreement, the number of housing units, and the annual rental rate vary from
contract to contract for the eight Section 801 developments.

Fort Hood, Texas
Fort Hood will become the second DoD installation to allow the general public to live on
base unless the Army and Universal Services, Fort Hood extend the inlease or reach
another agreement to exclusively house military personnel in the units. The Army
entered into Section 801 housing contract DACA63-5-88-0372 with Universal Services,
Fort Hood for the Army to lease 300 units of family housing from the developer. All
300 units have 2 bedrooms. The inlease between the Army and the developer is in effect


                                           16
from August 1988 through July 2008. During the inlease, the developer is responsible for
the maintenance of the units. The Section 801 housing units at Fort Hood are located on
the perimeter of the base. Figure 9 shows a Section 801 housing unit on Fort Hood.




                   Figure 9. Fort Hood Section 801 Housing Unit

Fort Hood officials maintain a large waiting list for on-base two-bedroom units;
therefore, the Army wants to continue its relationship with the developer. The Army and
the developer engaged in talks to extend the inlease and continue the current relationship
but have not reached an agreement yet. However, the Army and the developer continue
to work to reach an acceptable agreement. The Army no longer places soldiers in the
units unless the soldiers agree to pay rent to the developer when the inlease expires or
move out before July 2008.

Generally, Fort Hood security officials believe threat levels will be increased and military
families living in the units will forfeit some security if the general public lives in the
Section 801 on-base housing units. Fort Hood security officials want to perform
background checks on individuals living in the units and believe the residents will have to
comply with Fort Hood regulations. For example, Fort Hood regulations currently
require that all firearms on base be registered. Also, Fort Hood officials must modify
Force Protection Conditions to allow the general public to live on base during a Force
Protection Condition Delta. Fort Hood officials will also seek reimbursement from the
developer for fire and emergency services.

Naval Base Ventura County Port Hueneme, California
The Navy entered into contracts N62474-91-RP-00E26 and N62474-91-RP-00P88 with
John E. Sims to construct 300 two-bedroom Section 801 housing units on Naval Base
Ventura County (NBVC) Port Hueneme. The Navy entered into the contract for the units
upon completion by the developer and acceptance by the Navy. The inlease is in effect
from September 1991 until March 2014. During the inlease, the Navy is responsible for
maintenance of the units. Figure 10 shows Section 801 housing units on NBVC Port
Hueneme.




                                            17
                   Figure 10. NBVC Section 801 Housing Units

The Section 801 housing units are located near the perimeter of the base and are
surrounded by other housing areas. The units are split into two housing sections. One
section consists of 208 units and the other section consists of 92 units. The locations of
the units will make it difficult for Navy officials to separate the units from the rest of
NBVC Port Hueneme.

NBVC Port Hueneme security officials are opposed to allowing the general public to live
on base. NBVC Port Hueneme security officials believe allowing the general public to
live in the units would, at a minimum, indirectly affect the mission of the base. They
cited a number of additional concerns with the prospect of the general public living in the
units. For example, it would be especially troublesome to secure the housing areas as the
Section 801 housing units are split into two separate areas. Furthermore, NBVC Port
Hueneme security officials stated they believe they would need additional police officers
and patrols, and an increased security budget if the general public lives in the units. In
our meeting with Navy headquarters officials, they disagreed with some of the concerns
cited by the NBVC Port Hueneme security officials. Finding B further discusses the
Section 801 on-base housing at NBVC Port Hueneme.

Eielson Air Force Base, Alaska–Sprucewood
The Air Force entered into the first of two Section 801 on-base housing agreements with
contracts F65501-85-L0003, F65501-85-L0004, F65501-86-L0001, and F65501-86-
L0002 at Eielson Air Force Base (AFB) with Ben Lomond, Inc., to construct 300 family
housing units on Eielson AFB. The developer constructed 300 housing units in the
Sprucewood housing area, 150 two-bedrooms units and 150 three-bedroom units. Ben
Lomond, Inc., with Air Force approval, transferred the contract to Polar Star Alaska
Housing Corporation in May 1995. Figure 11 shows Sprucewood Section 801 housing
units on Eielson AFB.




                                            18
                   Figure 11. Eielson AFB Sprucewood Section 801
                               Housing Units

The inlease ran for 20 years, starting August 1986 and ending in August 2006. During
this inlease, the Air Force paid the developer annual rent and annual housing maintenance
rental. The housing maintenance rental increased or decreased each year by the
percentage of the increase or decrease for the Anchorage Consumer Price Index for
Urban Consumers. The developer operated and performed all maintenance, repairs,
replacements, rehabilitation, and redecoration of housing units. The Air Force did not
include an option in the contract allowing the developer to rent the units to the
general public.

The Air Force leased land on Eielson AFB to Ben Lomond, Inc., for a term of 23 years,
beginning January 1985, and ending 17 months after the expiration of the inlease, in
January 2008. Ben Lomond, Inc., paid the Air Force rental in the amount of $1.00 for the
entire 22-year land lease term. The Air Force extended the inlease 1 year to
August 2007.

The Eielson AFB Sprucewood housing area was unoccupied as of November 2007 due to
ongoing litigation between the Air Force and Polar Star Alaska Housing Corporation.
The litigation pertains to the disagreement on whether the developer should remove the
units or the Air Force should purchase the units. Air Force officials state they do not
intend to purchase the housing units. The developer argues that because the Air Force
extended the land lease 1 year, the Air Force showed an interest in the units. As of
October 2007, the Air Force maintained all 300 vacant units.

Eielson AFB, Alaska–French Creek and Moose Lake
The Air Force entered into the second Section 801 on-base housing agreement with
contracts F65517-91-C-0002, F65503-95-L0001, F65503-95-L0002, and F65501-96-
L0001 at Eielson AFB with Ben Lomond, Inc., to construct 366 family housing units in
two areas on Eielson AFB. The developer constructed 151 units in the Moose Lake
housing area and 215 units in the French Creek housing area. Ben Lomond, Inc.,
transferred the contracts to HEBL, Inc., in May 1993. Figure 12 shows the French Creek
Section 801 housing units on Eielson AFB.


                                           19
                   Figure 12. Eielson AFB French Creek Section 801
                                Housing Units

The Air Force and HEBL, Inc., entered into two contracts in February 1995 and
September 1995 for the interim occupancy of a portion of the units. The Air Force used
interim leases to accept portions of the units as they were completed. The inlease began
and the interim leases expired once all 366 housing units were completed. The Air Force
performed the operation and maintenance of the units until the interim lease expired in
September 1996.

Upon completion of the units and acceptance of the units, the Air Force entered into
a 20-year inlease effective October 1996. Air Force personnel maintain sole occupancy
rights to the units for family housing during the lease ending in September 2016. The
Government, at its sole expense, performs maintenance of the units throughout the
inlease phase. Eielson AFB officials’ preliminary plan is to explore the possibility of
purchasing the units after the lease expiration in 2016.

Ellsworth AFB, South Dakota
Air Force officials entered into Section 801 housing contract F39601-89-L0002 with
Hunt Building Corporation to construct 828 family housing units on Ellsworth AFB. The
developer constructed 24 four-bedroom units, 352 three-bedroom units, and 452 two-
bedroom units. Figure 13 shows Section 801 units on Ellsworth AFB.




                                           20
                    Figure 13. Ellsworth AFB Section 801 Housing Units

Air Force officials entered into the inlease in December 1991 for a term of 20 years,
commencing on December 1991 and ending December 2010 through July 2011,
depending on date of acceptance. The Government pays the developer a fixed rental for
the 20-year period, with the exception of property tax and insurance premium increases
or decreases. The Air Force is responsible for the operation of the housing units and all
maintenance, repairs, replacements, rehabilitation, and redecoration.

The Air Force leased to Hunt Building Corporation land on Ellsworth AFB. The contract
is for a term of 40 years, beginning August 1989 and ending August 2029. At the
expiration of the inlease, the developer pays rent in monthly installments at fair market
rent. Fair market rent is calculated as a percentage of gross monthly income to include
rentals from the units for the preceding month.

The Ellsworth AFB Section 801 housing units are located on the perimeter of the base;
therefore, a separate access route to the units may be used for the general public to live on
base. Ellsworth AFB officials may explore the option of including the Section 801
on-base units in another DoD privatized housing program at the conclusion of the inlease.

Hurlburt Field, Florida
The Air Force entered into Section 801 contract F08620-90-L0001 with Fort Walton
Defense Housing for 300 housing units on Hurlburt Field. Fort Walton Defense Housing
constructed 89 two-bedroom units, 131 three-bedroom units, and 80 four-bedroom units.
The sole purpose of the leased premises is for the use of military personnel and their
dependents assigned to Hurlburt Field. The developer is not required to use the housing
units exclusively for military personnel and their dependents after expiration of the
inlease. Figure 14 shows Section 801 housing units on Hurlburt Field.




                                             21
                   Figure 14. Hurlburt Field Section 801 Housing Units

Air Force officials entered into an inlease in June 1992 for a term of 20 years,
commencing in June 1992 and ending June 2012. The Air Force pays the developer a
fixed rental rate for the 20 years, with the exception of property tax and insurance
premium increases or decreases. The Air Force is responsible for the operation of the
housing units and all maintenance, repairs, replacements, rehabilitation, and redecoration.

The Air Force leased to Fort Walton Defense Housing land at Hurlburt Field. The lease
is for a term of 40 years, beginning in January 1991 and ending in January 2031. At the
expiration of the inlease, the developer pays rent in monthly installments at fair market
rent. Fair market rent is calculated as a percent of gross monthly income to include
rentals from the dwellings for the preceding month.

The Hurlburt Field Section 801 housing units are located on the perimeter of the base;
therefore, a separate access route may be constructed to the units for the general public to
live on base. Hurlburt Field officials are still undecided whether they will allow the units
to be rented to the general public.

Conclusion
We recognize that the presence of civilian personnel on NWS Earle with its sensitive
operations presents a complication for base operations; we believe that officials at NWS
Earle are taking all the steps necessary for the general public to live in the Section 801
on-base housing units under the terms of the contract. However, the terms of the contract
do not specify what additional security measures will be needed for the general public to
live on base. Six other DoD installations have Section 801 on-base housing units;
however, as of May 2008, Fort Wainwright is the only installation with the general public
living in the Section 801 on-base housing units. NWS Earle officials plan to implement
security measures similar to those implemented at Fort Wainwright, including erecting a
security fence around the units and obtaining easements for the construction of a
dedicated access road to the units. The Navy issued a contract to comply with NEPA for
NWS Earle. The draft EIS, which covers security, environmental, traffic, and education
concerns, is expected to be issued in November 2008. The Navy will need to factor in


                                            22
the impact of the EIS results into its decision making process on whether to convert the
contract from the inlease period to the outlease period or buy out the remainder of the
contract. We believe that if the Navy seriously considers issues arising from the EIS and
community concerns, the Navy will be in a better position to determine the appropriate
course of action at the end of the inlease period.




                                           23
24
Finding B. Improved Planning Needed for
On-Base Housing Contracts
DoD entered into lengthy Section 801 on-base housing agreement contracts with fixed
rental rates regardless of occupancy level that did not include early termination
provisions* without substantial monetary penalties. DoD officials did not adequately plan
Section 801 on-base housing agreement contracts for the following reasons.

    •    When they initiated the contracts, DoD officials did not envision the need for
         closed bases. They also did not consider the potential losses of personnel due to
         Base Realignment and Closure or mission changes.

    •    DoD officials did not include provisions in the contracts for alternate uses of
         family housing when the requirement changed.

As a result of DoD officials entering into lengthy Section 801 on-base housing contracts,
it may cost DoD a substantial amount of money, on top of millions of dollars already
paid, to compensate the contractor for loss of revenue during the remainder of the
contract. If DoD officials choose not to terminate or renegotiate the existing 801 housing
contracts, the general public will potentially be residing in on-base housing, thereby
placing an increased security monitoring burden on the installation. In addition, Navy
officials are not using vacant Section 801 on-base family housing units when other
possible housing requirements exist. As of April 2008, the Navy Section 801 on-base
housing units at NVBC Port Hueneme were about 40 percent occupied and as of
October 2007, the Navy Section 801 on-base housing units at NWS Earle were less than
3 percent occupied. The Navy is paying about $444,303 per year per occupied unit at
Naval Weapons Station Earle and about $25,943 per year per occupied unit at Naval Base
Ventura County, Port Hueneme. Additionally, the Navy paid about $16.9 million for
vacant housing at NWS Earle over the last 6 years.

Long-Term Family Housing Agreements
DoD officials entered into long-term agreements with private developers for on-base
family housing without adequate consideration of the location of the Section 801 on-base
housing units. In order for developers to secure financing to construct the family housing
units, DoD officials agreed to lengthy contracts. We reviewed contract terms


*
 Other than in the case of a national emergency declared by Congress or the President pursuant to Title II
of the National Emergencies Act of September 14, 1976, whereby the Government has the right to suspend
or terminate the outlease, at any time, without prior notice. If the contract was cancelled due to a national
emergency declaration by the President, the Navy would be held accountable for substantial termination
costs to compensate the developer for lost revenue during the outlease. Additional standard contract
clauses for termination for default and termination for casualty are also included in the contract, each of
which includes costly monetary penalties.


                                                     25
ranging from 23 years to 52 years for eight DoD Section 801 on-base housing
developments. See Table 2 for the term length of each Section 801 on-base housing
agreement.

                      Table 2. On-Base Section 801 Contract Terms

       Installation           Number        Outlease      Inlease End      Outlease End
                              of Units        Start
Fort Wainwright                 400         6/27/1986       5/5/2007         6/26/2008

Fort Hood                        300        6/1/1987        7/31/2008        5/30/2019

NWS Earle                        300        9/1/1988        8/31/2010        8/31/2040

NBVC Port Hueneme                300        9/30/1991       3/1/2014         9/29/2033

Eielson AFB–Sprucewood           300        1/7/1985        8/5/2006          1/6/2008

Eielson AFB–Moose Lake           366        4/15/1991       9/30/2016        9/30/2016
and French Creek
Ellsworth AFB                    828        8/1/1989        7/31/2011         8/1/2029

Hurlburt Field                   300        1/31/1991       6/4/2012         1/30/2032


DoD officials entered into long-term Section 801 on-base agreements without adequately
planning for access to the Section 801 units during the outlease period when deciding on
the location of the on-base units. For the developer to rent the Section 801 on-base
housing units to the general public, DoD and the developer must agree to install a
perimeter fence and dedicated access road to the units. DoD officials included a
provision in NWS Earle Supplemental Lease Agreement 43 to accelerate the transition of
the units. However, DoD officials were unable to provide a dedicated access road in a
timely manner to take advantage of this provision. DoD officials should have considered
the access roads and perimeter fencing needed for the general public to live on base when
deciding on the location of on-base Section 801 units. Because they could not easily
fence off and provide a dedicated access road to the units, DoD officials were forced to
pay for unneeded units.

Changes in DoD Security and Missions
DoD officials did not adequately plan for changing security and mission requirements
during the formulation of the Section 801 on-base housing contracts. Since
September 11, 2001, security requirements on DoD installations have tightened.
Additionally, installation missions have changed over the last 20 years. DoD officials
entered into lengthy contracts and did not include provisions for such changes in security


                                            26
and housing requirements in the terms and conditions of the Section 801 contracts. In
addition to the standard contract termination clauses for default and termination for
casualty, termination provisions are included in Section 801 contracts only in the event of
a declared national emergency. DoD is now faced with the possibility of either allowing
the general public to reside in on-base housing or terminate the contract by paying a
substantial amount to compensate the developer for lost revenue.

Increased Security at DoD Installations
DoD installations face increased security concerns in today’s environment. Prior to
September 11, 2001, many DoD installations were open and allowed the general public
access with very little security monitoring. Following the terrorist attacks of 2001, DoD
actively engaged in the implementation of various antiterrorism and force protection
measures designed to limit public access to sensitive military information.

DoD Regulation 5200.08-R, “Physical Security Program,” April 9, 2007, implemented
DoD policies and minimum standards for the physical protection of DoD personnel,
installations, operations, and related resources. The Physical Security Program is the part
of security concerned with the active and passive measures designed to prevent
unauthorized access to personnel, equipment, installations, information, and to safeguard
them against espionage, sabotage, terrorism, damage, and criminal activity. DoD
Regulation 5200.08-R, Chapter 3, “Installation Access and Emergency Planning,”
implemented general procedures that meet minimum Federal standards for controlling
entry onto and exit from military installations and the facilities within military
installations. Access control measures include:

   •   implementing DoD Antiterrorism Standards and DoD Antiterrorism Program-
       specific security measures based on the level of threat;

   •   designating restricted or controlled areas to safeguard property or resources for
       which the commander is responsible; and

   •   enforcing the removal of, or denying access to, persons who threaten security,
       order, and the discipline of the installation.

Increased Security Monitoring Burden
DoD officials did not foresee an increased threat on DoD installations when formulating
the Section 801 on-base housing contracts in the 1980s and 1990s. Under the conditions
of the Section 801 on-base contracts, the developer may rent units to the general public
during the outlease phase unless a military exclusivity rental agreement is in place. DoD
is required to provide the developer with unimpeded access to the units. In most cases,
DoD officials plan to build a dedicated fenced access road to the Section 801 housing
units on base.

DoD security officials face an increased security monitoring burden during the outlease
phase with the general public living on base in the Section 801 housing units. Increased
security patrols around the Section 801 housing unit perimeter, access road, and fencing


                                            27
area by DoD security personnel will be required to ensure residents do not obtain access
to sensitive military areas. DoD security personnel also must monitor the actions of any
visitors to the housing area including guests, delivery vehicles, and maintenance workers.
The amount of additional funding needed has not been determined for increased security
personnel and monitoring of the Section 801 on-base housing area.

Changes in Installation Mission
DoD officials did not foresee a reduction in housing needs due to mission changes and
Base Realignment and Closure recommendations when formulating the Section 801
housing contracts. DoD is constantly evolving and the mission of an installation changes
over time. In addition, DoD experienced numerous Base Realignment and Closure
rounds over the past 20 years realigning mission functions at many installations. DoD
recommended, in its 1993 Base Realignment and Closure recommendations, to realign
NBVC Port Hueneme. A change in mission directly affects the requirements for family
housing. DoD officials did not include provisions for reductions in family housing
requirements related to installation mission changes or Base Realignment and Closure
recommendations in the terms and conditions of the Section 801 contracts. Therefore,
DoD is held accountable for rent payments for units no longer needed by the installations.

Section 801 Contract Termination or Renegotiation
The developer is permitted to rent Section 801 on-base housing units to the general public
during the outlease phase of the Section 801 housing contracts. DoD officials
considering termination or renegotiation of Section 801 housing contracts to avoid such a
situation have limited options.

Terminating Section 801 housing contracts will be very costly. DoD paid millions of
dollars in rental fees for Section 801 housing units over the last 20 years. For example,
NWS Earle officials paid about $59.8 million in rental fees to the developer from
1990 through April 2008. Table 3 below shows the current total cost per year and per
unit for each Section 801 on-base housing agreement.




                                            28
                       Table 3. Section 801 Housing Contract Costs

                   Installation                 Cost Per Year              Cost Per Unit

         Fort Wainwright                      $8,211,1291             $20,528

         Fort Hood                            $4,205,016              $14,017

         NWS Earle                            $3,554,424              $11,848

         NBVC Port Hueneme                    $3,113,196              $10,377

         Eielson AFB–Sprucewood               $3,600,0002             $12,000

         Eielson AFB–Moose Lake /             $8,688,150              $23,738
         French Creek
         Ellsworth AFB                        $8,186,000              $9,886

         Hurlburt Field                       $2,848,746              $9,496
         1
          Last amount paid in May 2007 due to expiration of the inlease.
         2
          Last amount paid in August 2006.

To terminate the Section 801 housing contract at the conclusion of the inlease, the
Government must compensate the developer for all revenues lost during the outlease
phase. For example, if NWS Earle terminates the Section 801 contract at the conclusion
of the inlease, DoD owes the developer lost revenue for 300 units over 30 years. In
addition, installation officials and the developer would have to agree on the fair market
value of the developer’s improvements on the land to calculate the lost revenue. The fair
market value will be determined closer to the end of the inlease. Termination of the
contract would prove to be costly for DoD.

DoD officials may also elect to renegotiate the terms and conditions of the housing
contracts to maintain exclusive use of housing for military personnel and their dependents
during the outlease. Fort Hood officials continue to explore this option to continue the
current relationship with the developer.

Provisions for Alternate Uses of On-Base Family
Housing
DoD officials did not incorporate provisions for alternative uses of family housing in the
event the requirement for family housing no longer existed. Under the conditions of
Section 801 housing contracts, the developer is entitled to use the leased property for the
sole purpose of the construction, operation, and leasing of residential family housing.
During the inlease phase, DoD is required to pay rent for all Section 801 housing units,


                                                  29
regardless of the current need for family housing. DoD officials failed to include any
additional provisions in Section 801 contracts for instances in which the family housing
requirement diminished during the inlease phase. Therefore, DoD is forced to pay rent
for units no longer needed for family housing.

Navy Inefficient Use of Vacant Units
Navy officials are inefficiently using vacant Section 801 on-base family housing units
when other housing requirements exist. The occupancy rate at NVBC Port Hueneme fell
from 97 percent in 2002 to about 40 percent in April 2008. Therefore, as of April 2008,
the Navy is paying about $25,943 per year per occupied unit. Table 4 shows the
approximate costs and occupancy rates at NBVC Port Hueneme for 2008.

     Table 4. NBVC Port Hueneme Section 801 Costs and Occupancy Rates for 2008

        Installation              Cost Per        Approximate     Cost Per   Approximate
                                   Year1            Percent        Unit        Cost Per
                                                   Occupied2                  Occupied
                                                                             Unit Per Year
NBVC Port Hueneme                $3,113,196               40      $10,377      $25,943
1
    Yearly amount paid for the units starting in December 2007.
2
    As of April 2008.

Under the terms of the contract, the Navy pays a flat rate for the units regardless of the
occupancy level. According to NBVC Port Hueneme officials, the reasons for low
occupancy include a reduced requirement for two-bedroom units and the availability of
larger, less expensive, privately owned off-base units. NBVC Port Hueneme officials
explored the possibility of placing unaccompanied military members in the units in order
to renovate existing unaccompanied military housing facilities. In addition, the Navy
considered adding additional commands at NBVC Port Hueneme. NBVC Port Hueneme
maintains a high unaccompanied military member housing occupancy rate and would be
unable to accommodate additional unaccompanied military members without
constructing new housing facilities. According to NBVC Port Hueneme officials,
allowing unaccompanied military members to occupy the units would provide more
flexibility with the units and decrease the cost per occupied unit. However, Navy legal
counsel informed NBVC Port Hueneme officials that unaccompanied military members
are prohibited from occupying the Section 801 housing units.

Chief of Naval Operations Instruction 11101.13J, “Assignment and Utilization of
Navy-Managed Military Family Housing,” December 16, 1992, limits the assignment of
family housing to military personnel with accompanying dependents. “An individual
military member who is unmarried, divorced, separated, or widowed and who is
accompanied by dependents is eligible for military family housing even if deployed.”
However, under paragraph 7(b) of Naval Operations Instruction 11101.13J, “a permanent
deviation from this policy may be approved by the Chief of Navy Personnel, the major
claimant, and the Commander, Naval Facilities Engineering Command.” Under the


                                                     30
conditions of Naval Operations Instruction 11101.13J, Navy officials at installations with
low family housing occupancy rates may request a waiver for an alternative use of the
units, provided an additional housing requirement exists. However, Naval Operations
Instruction 11101.13J contradicts 10 U.S.C. 2835, “Long-Term Leasing of Military
Family Housing to be Constructed.”

That section of the United States Code authorizes the build and leasing of family housing
units for members of the armed forces who are eligible for assignment to military family
housing only. Therefore, the Navy cannot simply grant a waiver under Chief of Naval
Operation Instruction 11101.13J to allow unaccompanied military members to occupy the
Section 801 on-base housing units. The Navy has proposed an FY 2009 legislative
amendment to 10 U.S.C. 2835 to allow the Services to assign military members without
dependents to excess family housing constructed under the statutory “build-to-lease”
authority. The Secretary of a Military Department must approve the conversion of the
family housing lease to a military unaccompanied housing lease and the lease must not
exceed the original term of the existing family housing lease. If enacted, the amendment
will allow the Services to use existing family housing structures for other housing
requirements.

The Navy is paying about $444,303 per year per occupied unit at NWS Earle, which is
more than 3700 percent higher than the cost for full occupancy. NWS Earle lost home-
ported ships and personnel in the mid to late 1990s. As a result, the housing requirements
at NWS Earle decreased significantly. The Section 801 housing units at NWS Earle went
from 95 percent occupied in 2000 to less than 3 percent occupied in 2007. Table 5 shows
the Section 801 approximate costs and occupancy rate for 2007.

         Table 5. NWS Earle Section 801 Costs and Occupancy Rates for 2007

       Installation               Cost Per            Percent            Cost Per         Approximate
                                   Year1             Occupied2            Unit              Cost Per
                                                                                          Occupied Unit
                                                                                            Per Year
NWS Earle                        $3,554,424               <3              $11,848           $444,303

1
  The amount per unit is calculated on a rental year starting May 1 and ending April 30 of the following
year.
2
  As of October 2007.

Unlike NBVC Port Hueneme, NWS Earle does not need additional units for
unaccompanied military member housing or any other housing needs. If an escape clause
or an agreed-upon termination clause existed in the Section 801 contract at NWS Earle,
the Navy could have reduced the costs per occupied units instead of paying for units that
are almost entirely unoccupied. As a result, the Navy paid about $16.9 million since
2002 for unoccupied Section 801 housing units at NWS Earle. Table 6 shows the
approximate percentage and costs of unoccupied Section 801 housing units.




                                                    31
                 Table 6. NWS Earle Percentage and Costs of Unoccupied
                              Section 801 Housing Units

    Year        Percentage of              Approximate            Amount Per             Approximate
              Unoccupied Units1             Number of               Unit2                Amount Paid
                                           Unoccupied                                   for Unoccupied
                                              Units                                          Units
    2002                57                       171                 $11,274               $1,927,890

    2003                75                       225                 $11,374               $2,559,124

    2004                78                       234                 $11,477               $2,685,565

    2005                86                       258                 $11,596               $2,991,744

    2006                93                       279                 $11,744               $3,276,476

    2007                97                       291                 $11,848               $3,447,791

    Total                                                                                 $16,888,590

1
 The percentage of unoccupied units is calculated on a calendar year.
2
 The amount per unit is calculated on a rental year starting May 1 and ending April 30 of the following
year.

Conclusion
DoD officials entered into long-term Section 801 on-base housing contracts without
properly planning for the outlease period or a changing environment with increased
installation security and changing missions. DoD officials did not fully consider
measures needed to allow the general public access to the Section 801 on-base units
during the outlease when deciding on the location of the units. If access roads and
perimeter fencing had been considered when deciding on the location of on-base
Section 801 units, DoD officials would have been able to more easily section off
unneeded units from the rest of the base.

Physical security of DoD installations has increased in today’s environment. DoD
security personnel face an additional security monitoring burden when the general public
occupy on-base housing during the outlease. DoD officials have limited and costly
options to alleviate the security monitoring burden.

DoD officials did not include provisions to easily terminate Section 801 contracts in the
event the installation mission changed either by DoD or a Base Realignment and Closure
recommendation without costly monetary penalties. DoD installation officials are forced
to pay for units that are no longer required. The Navy Section 801 housing units at


                                                    32
NBVC Port Hueneme are more than half vacant when other possible uses exist. Navy
officials should take the necessary steps to allow NBVC Port Hueneme to use vacant
Section 801 housing units for other purposes.

Client Comments on the Findings and Our Response

Navy Comments on the Results in Brief
The Commander, Navy Region Southwest stated that the exclusion of the phrase “if
Congress enacts the Navy FY 2009 proposed amendments to section 2835, title 10,
United States Code” from the bullet concerning Naval Base Ventura County Port
Hueneme does not give the reader the proper context of the recommendation.

Audit Response
We agree with the Navy comments and revised the Results in Brief to indicate the
proposed legislation must be enacted before a waiver is requested.

Navy Comments on Cost per Occupied Unit
The Deputy Assistant Secretary of the Navy (Installations and Facilities) stated that the
cost per occupied unit would decrease by allowing unaccompanied military members to
occupy vacant Section 801 housing units; however, the overall cost to the Navy would
remain unchanged because the Navy pays a flat rate regardless of the occupancy level.

Audit Response
We agree with the Navy comments and previously stated on page 28 that “the Navy pays
a flat rate for the units regardless of the occupancy level.”

Navy Comments on its Legislative Proposal
The Deputy Assistant Secretary of the Navy (Installations and Facilities) indicated that
the FY 2009 legislative proposal allowing the Services to “assign military members
without dependents to excess housing,” only applies to housing constructed under the
statutory “build-to-lease” authority.

Audit Response
We agree with the Navy comments and revised page 29 to indicate the FY 2009
legislative proposal is only applicable for housing constructed under the statutory “build-
to-lease” authority.




                                            33
Recommendations, Client Comments, and Our
Response
1. We recommend that the Deputy Under Secretary of Defense (Installations and
Environment) consider an exit strategy and the location of on-base units in future
contracts for build-to-lease housing.

Office of the Under Secretary of Defense Comments
The Director, Housing and Competitive Sourcing partially concurred with
Recommendation B.1. and stated that the Section 801 authority is no longer used.
Current on-base Military Housing Privatization Initiatives do not include the lease
provisions that generated the concerns addressed in the report; however, the lessons
learned will be conveyed to the DoD Housing Policy Panel.

Audit Response
The comments were responsive to the recommendation, and no additional comments are
required.

Navy Comments
The Deputy Assistant Secretary of the Navy (Installations and Facilities) concurred with
Recommendation B.1. and indicated that there are no future plans to award build-to-lease
housing projects.

Audit Response
The comments were responsive to the recommendation, and no additional comments are
required.

2. We recommend that the Assistant Secretary of the Navy (Installations and
Environment) continue to pursue the FY 2009 proposed amendments to
section 2835, title 10, United States Code, “Long-Term Leasing of Military Family
Housing to be Constructed,” in order to allow for alternative uses of excess family
housing.

Navy Comments
The Deputy Assistant Secretary of the Navy (Installations and Facilities) concurred with
Recommendation B.2. and stated the Navy has submitted a legislative proposal to the
Office of the Secretary of Defense for FY 2009. The legislative proposal entitled
“Modifications of Long-Term Leasing Authority for Military Family Housing” would
allow alternative uses of excess Section 801 housing.

Audit Response
The comments were responsive to the recommendation, and no additional comments are
required.



                                           34
3. We recommend that the Commanding Officer, Naval Base Ventura County Port
Hueneme apply for a waiver to permit unaccompanied military members to occupy
vacant Section 801 housing units for the remainder of the contract if Congress
enacts the Navy FY 2009 proposed amendments to section 2835, title 10, United
States Code, “Long-Term Leasing of Military Family Housing to be Constructed.”

Navy Comments
The Deputy Assistant Secretary of the Navy (Installations and Facilities) concurred with
Recommendation B.3. and indicated that if Congress enacts the legislative proposal the
Navy would implement it wherever feasible.

Audit Response
The comments were responsive to the recommendation, and no additional comments are
required.

Navy Comments
The Commander, Navy Region Southwest concurred with Recommendation B.3. and
indicated that if Congress enacts the legislative proposal NBVC Port Hueneme would
request a waiver within 30 days of the enactment.

Audit Response
The comments were responsive to the recommendation, and no additional comments are
required




                                           35
36
Appendix A. Scope and Methodology
We conducted this audit from September 2007 through August 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our audit findings and conclusions based on our audit objectives. We believe
the evidence obtained provides a reasonable basis for our finding and conclusions based
on our audit objectives.

We conducted this audit at the request of Congressman Christopher H. Smith to review
the terms and conditions of the Section 801 housing agreements contract between the
Navy and Laurelwood, Inc., for housing privatization at Naval Weapons Station (NWS)
Earle, New Jersey.

Specifically, we reviewed the security measures the Navy will implement in order for the
general public to live on base. However, we did not review the sufficiency of the security
measures the Navy plans to implement nor did we perform a comprehensive security
threat assessment. We also determined whether the Navy issued a contract to comply
with the National Environmental Policy Act for NWS Earle and whether the assessment
covered security. In addition, we determined whether DoD has rented on-base housing to
the general public at other DoD installations and whether additional security measures are
in place at those locations. In particular, we limited our review to DoD installations with
Section 801 on-base housing.

We reviewed section 2828, title 10, United States Code (10 U.S.C. 2828), “Leasing of
Military Family Housing”; 10 U.S.C. 2667, “Leases: Non-Excess Property of Military
Departments”; 10 U.S.C. 2835, “Long-Term Leasing of Military Family Housing to be
Constructed”; 10 United States Code Service (USCS) 2872a, “Utilities and Services”;
5 USCS 552a, “Records Maintained on Individuals”; Fair Housing Act 42 U.S.C.
3604(a), “Discrimination in the Sale or Rental of Housing and Other Prohibited
Practices”; DoD Instruction 5200.08-R, “Physical Security Program”; Office of the Chief
of Naval Operations Instruction 11101.13J, “Assignment and Utilization of Navy-
Managed Military Family Housing”; task order 21 from contract N62472-01-D-1390;
task order 27 from contract N62470-06-D-7106; and Security Impact Study Using the
Risk Analysis Vulnerability Assessment Quantitative Methodology for Naval Weapons
Station Earle, New Jersey.




                                            37
We obtained and reviewed the contracts listed in the following three tables.

                       Table A-1. Army Section 801 Housing Leases
         Installation        Contract Number                 Developer
      Fort Wainwright       DACA85-1-86-71           North Star Alaska Housing
                            DACA85-5-87-74           Corp.
                            DACA85-5-88-17

      Fort Hood             DACA63-5-88-0372         Universal Services Fort
                                                     Hood, Inc.


                       Table A-2. Navy Section 801 Housing Leases

        Installation          Contract Number                Developer
      NWS Earle             N62472-86-RP-00209       Laurelwood, Inc.

      NBVC Port             N62474-91-RP-00E26       John E. Sims
      Hueneme               N62474-91-RP-00P88



                   Table A-3. Air Force Section 801 Housing Leases

         Installation         Contract Number                 Developer
      Eielson AFB           F65501-85-L0003          Polar Star Alaska Housing
                            F65501-85-L0004          Corp.
                            F65501-86-L0001
                            F65501-86-L0002

                            F65517-91-C-0002         HEBL, Inc.
                            F65503-95-L0001
                            F65503-95-L0002
                            F65501-96-L0001

      Ellsworth AFB         F39601-89-L0002          Hunt Building Corp.

      Hurlburt Field        F08620-90-L0001          Fort Walton Defense
                                                     Housing




                                            38
We also obtained occupancy levels and rental rates at the following locations.

            Table A-4. Dates of Occupancy Level and Rental Rates Obtained

       Installation                Occupancy Rate                  Rental Rate
Fort Wainwright               In Outlease Phase              May 2007

Fort Hood                     January 2008                   August 2007

NWS Earle                     October 2007                   April 2008

NBVC Port Hueneme             January 2008                   December 2007

Eielson AFB–Moose             February 2008                  October 2008
Lake/French Creek

Eielson AFB–Sprucewood        November 2007                  August 2006

Ellsworth AFB                 December 2007                  February 2008

Hurlburt Field                January 2008                   December 2007


We met with representatives from Office of the Under Secretary of Defense
for Acquisition, Technology, and Logistics (Installations and Environment); Office of the
Assistant Secretary of the Navy (Installations and Environment); Commander, Navy
Region Middle Atlantic; Headquarters, Department of the Army Housing; and the Air
Force Housing Department. We also met with Congressman Smith, his staff, state and
local officials, and the citizens group Neighbors Opposed to Privatization at Earle.

We met with contracting officials at U.S. Army Corps of Engineers, Fort Worth, Texas,
District; U.S. Army Corps of Engineers, Alaska District in Anchorage, Alaska; and Naval
Facilities Engineering Command, San Diego, California.

We met with and interviewed housing and security personnel at the following locations:

     •   Fort Wainwright, Alaska;

     •   Fort Hood, Texas;

     •   NWS Earle, New Jersey; and

     •   NBVC Port Hueneme, California.




                                           39
We met with and interviewed contracting, housing, and security personnel at the
following locations:

     •   Eielson AFB, Alaska;

     •   Ellsworth AFB, South Dakota; and

     •   Hurlburt Field, Florida.

We obtained input from the Department of Defense Office of Inspector General Chief of
Security regarding the security aspects of the audit.

For this report, the audit scope was limited to the congressional request. The audit scope
was also limited to DoD installations with Section 801 Housing located on base.

Review of Internal Controls
The Navy internal controls over contract administration and management were adequate
as they applied to the audit objectives.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.

Prior Coverage
No prior coverage has been conducted on Section 801 Housing contracts during the last
5 years.




                                            40
Appendix B. Congressman Christopher H.
Smith Request




                   41
42
Appendix C. Community Concerns
State and local officials from communities surrounding NWS Earle and the citizens group
Neighbors Opposed to Privatization at Earle raised additional concerns regarding
allowing the general public to reside in the Section 801 units at NWS Earle during the
outlease phase of the contract. A partial list of the primary concerns raised by the
community is provided below.


Additional Security Responsibilities
   •   The addition of 300 homes to the existing security concerns.
   •   Approximately 1200 civilians who will become the responsibility of security
       personnel.
   •   The additional security monitoring responsibility of guests, vendors, and
       contractors.
   •   The potential for increased criminal activity.

Environmental Impact
   •   NWS Earle listed as an Environmental Protection Agency Superfund site in 1990.
   •   Contaminants located in some areas of the base could expose residents to
       potential health risks.
   •   Contamination sites are above levels that allow for unrestricted use and unlimited
       exposure.

Traffic Impact
   •   Increased traffic congestion on Route 34 will require extra road maintenance and
       servicing.
   •   Additional traffic volume on Route 18 that will affect all of Monmouth County.
   •   The responsibility of maintenance and repair of the access road is yet to be
       determined.

School Impact
   •   The potential for 300–600 school-age children residing in the Section 801 units.
   •   School budgets will need to increase by millions of dollars to cover the additional
       $10,000–$12,000 cost to educate each pupil per school year.

Emergency Services
   •   Civilians requiring medical attention would be transported to the nearest civilian
       hospital or emergency facility.
   •   Traffic violations and criminal acts in the Section 801 housing area would be
       considered Federal offenses and transferred to a Federal magistrate.




                                           43
Taxation of Units
  •   Federal property is tax exempt.
  •   Citizens residing in Section 801 housing units will not be taxed to offset the
      required expenditures of the surrounding local community.




                                           44
Deputy Under Secretary of Defense (Installations and
Environment) Commemts




                    Click to add JPEG file




                                   45
Department of Navy Comments




                 Click to add JPEG file




                                46
                           Final Report
                            Reference




Click to add JPEG file




                         Revised




               47
Navy Region Southwest Comments


                                            Final Report
                                             Reference




                 Click to add JPEG file   Revised




                                48
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Culp
Gwynne M. Roberts
Rachel L. Herman
Jonathan M. Kistler
Jillisa H. Milner
Meredith H. Johnson
